     Department of Homeland Security




        FEMA Should Recover $7.7 Million of Public 

       Assistance Grant Funds Awarded to the City of 

           Lake Worth, Florida - Hurricane Wilma 





DA-13-04                                     November 2012

                                      OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security
                                           Washington, DC 20528 I wWw.oig.dhs.gov


                                               NOV 2 0 2012


MEMORANDUM FOR:                       Major P. (Phil) May
                                      Regional Administrator, Region IV
                                      Federal Emer       ncy      na~
                                                                    eme , t A~~ncy
                                                                 jlf/                 --'
FROM:                                 D. Michael Beard           /"'----
                                      Assistant Inspep r General
                                      Office of Eme ency Management Oversight

SUBJECT:                              FEMA Should Recover $7.7 Million of Public Assistance Grant
                                      Funds Awarded to the City of Lake Worth, Florida-
                                      Hurricane Wilma
                                      FEMA Disaster Number 1609-DR-FL
                                      Audit Report Number DA-13-04

We audited Public Assistance (PA) funds awarded to the City of Lake Worth, Florida (City) (FIPS
Code 099-39075-00). Our audit objective was to determine whether the City accounted for and
expended Federal Emergency Management Agency (FEMA) grant funds according to Federal
regulations and FEMA guidelines.

As of December 13, 2011, the City received a PA award of $12.4 million from the Florida
Division of Emergency Management (State), a FEMA grantee, for damages resulting from
Hurricane Wilma, which occurred in October 2005. The award provided 100 percent FEMA
funding for debris removal, emergency protective measures, and permanent repairs to
buildings and other facilities. The award consisted of 15 large projects and 31 small projects.1

We reviewed costs claimed under 6 large projects and 23 small projects with awards totaling
$10.4 million (see Exhibit A, Schedule of Projects Aud ited). Our review of small projects was
limited to project completion and insurance coverage. The audit covered the period October 24,
2005, to December 13, 2011, during which the City received $10.4 million of FEMA funding
under the projects reviewed. At the time of our audit, the City had completed work under all
large projects included in our scope and had submitted a final claim of expenditures to the
State for those projects.

We conducted this performance audit between January and August 2012 pursuant to the
Inspector General Act of 1978, as amended, and according to generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


1   Federal regulations in effect at the time of Hurricane Wilma set the large project threshold at $57,500.
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



   sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
   based upon our audit objective. We believe that the evidence obtained provides a reasonable
   basis for our findings and conclusions. To conduct this audit we applied the statutes,
   regulations, and FEMA policies in effect at the time of the disaster.

   We judgmentally selected project costs (generally based on dollar value); interviewed City,
   State, and FEMA officials; reviewed the City’s procurement policies and procedures; reviewed
   applicable Federal regulations and FEMA guidelines; and performed other procedures
   considered necessary to accomplish our audit objective. We did not assess the adequacy of the
   City’s internal controls applicable to its grant activities because it was not necessary to
   accomplish our audit objective. However, we gained an understanding of the City’s method of
   accounting for disaster-related costs and its policies and procedures for administering activities
   provided for under the FEMA award.


                                           RESULTS OF AUDIT

   FEMA should recover $7,682,532 of PA funding awarded to the City. The City generally
   accounted for FEMA funds on a project-by-project basis, but it did not comply with Federal
   procurement requirements when awarding contracts valued at $6,998,095 for repairs to its
   electrical distribution system. We also identified $684,437 of ineligible costs claimed by the
   City, consisting of $476,455 that were not adequately supported, $180,626 of costs covered by
   insurance, $8,624 of costs for small project activities that were not completed, and $18,732 of
   excessive labor costs.

   Finding A: Contracting Procedures

   The City did not comply with Federal procurement requirements when awarding $6,998,095 of
   time-and-equipment contracts under several projects for repair of the City’s electrical distribution
   system. Federal regulations at 44 CFR 13.36 required the City, among other things, to—

       •	 Perform procurement transactions in a manner providing full and open competition
          except under certain circumstances. One allowable circumstance is when the award of a
          contract is infeasible under small purchase procedures, sealed bids, or competitive
          proposals, and there is a public exigency or emergency for the requirement that will not
          permit a delay resulting from competitive solicitation (44 CFR 13.36(c)(1) and (d)(4)(i)).

       •	 Perform a cost or price analysis in connection with every procurement action, including
          modifications, to determine the reasonableness of the contractor’s proposed contract
          price (44 CFR 13.36(f)(1)).


www.oig.dhs.gov	                                    2                                     DA-13-04
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




       •	 Use time-and-material contracts only after a determination that no other contract is
          suitable; and the contract contains a ceiling price that the contractor exceeds at its own
          risk (44 CFR 13.36(b)(10)).

   In addition, FEMA’s Public Assistance Guide (FEMA 322, October 1999, pp. 39–40) specifies that—

       •	 Contracts must be of reasonable cost, generally must be competed, and must comply
          with Federal, State, and local procurement standards.

       •	 Noncompetitive proposals should be used only when the award of a contract is not
          feasible under small purchase procedures, sealed bids, or competitive proposals, and
          one of the following circumstances applies: (1) the item is available only from a single
          source, (2) there is an emergency requirement that will not permit a delay for
          competition, (3) FEMA authorizes noncompetitive proposals, or (4) solicitation from a
          number of sources has been attempted and competition is determined to be
          inadequate.

   FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by-
   case basis (44 CFR 13.6(c)).

   Hurricane Wilma struck the City on October 23, 2005, and caused widespread damage to the
   City’s electrical distribution system. Using its emergency contracting procedures, the City hired
   multiple electrical contractors under noncompetitive contracts to repair damages caused by the
   storm. The City hired the contractors without performing a cost or price analysis to determine
   the reasonableness of their proposed prices, and without establishing ceiling prices that the
   contractors exceeded at their own risk.

   According to the City’s utility department, electrical power was restored to all of the City’s
   customers by November 7, 2005. However, additional work was required to complete
   permanent repairs necessitated by the storm. The City did not solicit competitive bids for the
   permanent work. Instead, it continued to use the contractors hired under the noncompetitive
   contracts for the contract work, which was completed March 6, 2006.

   We concluded that the immediate need for electrical power constituted exigent circumstances
   that warranted the use of noncompetitive contracts through November 7, 2005, because lives
   and property were at risk. However, the City should have performed a cost/price analysis and
   established contract ceiling prices for the time-and-equipment work awarded under exigent
   circumstances. In addition, the City should have openly competed the permanent repair work
   after such date because exigent circumstances no longer existed to justify the use of


www.oig.dhs.gov	                                   3                                    DA-13-04
                                        OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



   noncompetitive contracts. The City claimed contract costs totaling $6,998,095 for work
   performed from October 23, 2005, to March 6, 2006, as shown in table 1.

                                    Table 1. Electrical Repair Contract Work
                    Project                                         Time-and-Equipment
                    Number             Period of Work              Contract Costs Claimed
                     7679           10-23-05 to 03-06-06                           $ 5,169,967
                     7676           10-24-05 to 11-13-05                             1,649,769
                     7671           10-26-05 to 11-11-05                               178,359
                     Total                                                        $ 6,998,095


   In September 2011, FEMA reviewed and approved the contract costs during project closeout.
   FEMA noted that the City followed its own emergency contracting procedures rather than
   Federal procurement standards and FEMA guidelines. However, the documentation did not
   indicate that FEMA reviewed the costs for reasonableness. Therefore, we question the
   $6,998,095.

   Finding B: Supporting Documentation

   The City’s claim included $476,455 of force account2 labor and equipment that was not
   supported by adequate documentation. Cost Principles at 2 CFR 225, Cost Principles for State,
   Local, and Indian Tribal Governments, Appendix A, Section (C)(1)(j), states that a cost must be
   adequately documented to be allowable under Federal awards. We question the $476,455, as
   follows:

   •	     The City claimed $123,144 under Project 4921 for labor costs incurred by police officers
          from October 27 to November 5, 2005. We reviewed the City’s payroll and time attendance
          records supporting the claim and identified 40.5 hours of overtime ($1,410) that were
          claimed to FEMA but not paid to the police officers. We also identified several instances
          where the City used incorrect hourly rates to calculate overtime costs ($1,149). These
          unsupported costs totaled $2,559.

   •	 The City did not have equipment activity logs or equivalent documentation that provided
      specific periods of use (i.e., dates of use, along with beginning and ending times) for
      $473,896 of equipment costs claimed. Instead, the City used timesheets of employees who
      were assigned pieces of equipment on a daily basis to calculate its claim. For instance, if an
      employee worked an 8-hour day and was assigned a piece of equipment, the City claimed 8
      hours of use for that piece of equipment. However, such methodology and documentation

   2
       Force account refers to the City’s personnel and equipment.

www.oig.dhs.gov	                                             4                                   DA-13-04
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security



        were insufficient for us to validate the accuracy and eligibility of equipment costs claimed
        because they are based on the assumption that employees continuously used the
        equipment throughout their work period, without any idle time. Therefore, we question
        the $473,896, as shown in table 2.

                                  Table 2. Unsupported Equipment Costs
                      Project                                            Costs     Amount
                      Number                 Activity                   Claimed   Questioned
                       6477      Debris Removal                         $288,034    $288,034
                       8398      Electrical Distribution Repairs          185,862    185,862
                       Total                                            $473,896    $473,896

   City officials disagreed with our finding that equipment costs were unsupported. They believed
   that the force account labor timesheets that identified the piece of equipment an individual
   was assigned were sufficient documentation to support equipment use.

   Finding C: Losses Covered by Insurance

   The City’s claim included $180,626 of project costs that were covered by insurance. Section
   312(a) of the Robert T. Stafford Disaster Relief and Emergency Assistance Act, as amended,
   states that no entity will receive assistance for any loss for which financial assistance has
   already been received from any other program, from insurance, or from any other source. We
   question $180,626 as follows:

   •	   FEMA approved a total of $156,738 under several small projects for the repair of various
        facilities. However, the City received $221,110 of insurance proceeds to cover $119,318 of
        the repair costs, but failed to reduce project costs by that amount. Therefore, we question
        the $119,318, as shown in table 2.

                                       Table 2. Insurance Recoveries
            Project             Facility Name                Amount       Insurance     Questioned
              No.                                           Approved      Recoveries       Costs
             8472      Casino Pool and Beach Complex        $ 46,341          146,102     $ 46,341
             5166      Pinecrest Cemetery/Vehicle #44          31,738          27,008        27,008
             3651      Memorial Park                            2,633           4,664         2,633
             3429      Multi-Space and Park Meters             21,755          14,555        14,555
             3830      Old Landfill—fences                     10,905           7,905         7,905
             4536      Bryant Park                             11,376           3,949         3,949
             5590      Sunset Park                             31,990          16,927        16,927
             Total                                          $ 156,738       $ 221,110    $ 119,318




www.oig.dhs.gov	                                        5                                         DA-13-04
                                  OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



   •	   FEMA awarded the City $18,354 under Project 5192 (Memorial Golf Course) and $42,954
        under Project 8279 (Howard Park) to repair facilities damaged by the disaster. The facilities
        were fully insured, and the City was responsible for pursuing full insurance recoveries for
        damages to the two facilities. However, the City did not submit a claim to its insurance
        carrier for the damages. Therefore, we question the $61,308 of costs covered by insurance.

   Finding D: Small Project Work Not Completed

   The City could not provide evidence that $8,624 of permanent repair work under two small
   projects had been completed. According to 44 CFR 206.205(a), failure to complete work under
   a small project may require that the Federal payment be refunded. In addition, FEMA’s Public
   Assistance Guide (FEMA 322, April 1999, p. 114) states that a grant recipient has 18 months
   from disaster declaration date to complete work under permanent repair projects. The State,
   as grantee, has the authority to grant extensions for an additional 30 months under extenuating
   circumstances, and FEMA may grant extensions beyond the State’s authority appropriate to the
   situation.

   The City received $56,297 of FEMA funding to make various repairs to facilities damaged by the
   disaster in October 2005. However, as of August 2012, the City could not provide evidence to
   show that the work had been completed or that time extensions had been granted by the State
   or FEMA to complete work under the projects. Therefore, we question the $8,624 shown in
   table 3.

                          Table 3. Small Project Activities Not Implemented
                       Project      Amount                 Activities          Amount
                       Number       Received          Not Implemented         Questioned
                        8443          $ 4,531    Exterior Pool Filter House     $ 4,531
                        8511            51,766   Office repairs                    4,093
                        Total         $ 56,297                                  $ 8,624


   Finding E: Excessive Labor Charges

   The City’s claim under Project 8398 included excess force account labor costs totaling $18,732
   for employees whose compensation was not based on the City’s written compensation policy in
   effect prior to the disaster. According to 2 CFR 225, Cost Principles for State, Local and Indian
   Tribal Governments, Appendix A, Section (C)(1)(a), costs under Federal awards must be both
   reasonable and necessary. FEMA policy (Response and Recovery Directorate Policy Number:
   9525.7, July 2000) states that straight time and overtime will be determined according to the
   applicant’s written policies and labor union contracts in effect before the disaster.



www.oig.dhs.gov	                                      6                                    DA-13-04
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



   The $18,732 of excessive costs occurred because the City paid double time for all hours worked,
   including regular hours, when an employee worked 16 consecutive hours during a work period.
   According to the City’s compensation policy and labor union contract, employees who work
   between 8 and 16 consecutive hours during a work period would be paid at time-and-a-half
   rates, and all hours over 16 would be paid at double-time rates. We question the $18,732 of
   excessive labor costs claimed for employees whose compensation was not consistent with the
   City’s compensation policy.

   Office of Inspector General Comments. City officials responsible for making key decisions
   regarding costs claimed to the State under the grant were no longer employed by the City at
   the time of our audit. Therefore, we were unable to determine, through interviews, the
   reasons certain ineligible costs were claimed. Nonetheless, Federal regulation 44 CFR
   13.37(a)(2) requires the State to take steps to ensure that subgrantees are aware of
   requirements imposed on them by Federal regulations. Further, under Federal regulation 44
   CFR 13.40(a), the State, as grantee, is required to manage the day-to-day operations of
   subgrant activity and monitor subgrant activity to ensure compliance with applicable Federal
   requirements. The costs in question were accepted by the State during its periodic reviews of
   reimbursement claims submitted by the City. Based on the nature of our findings, we believe
   that the State needs to improve its management controls over monitoring subgrantee project
   activities.


                                        RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IV:

           Recommendation #1: Disallow $6,998,095 of ineligible costs claimed for contracts that
           were not procured in accordance with Federal requirements unless FEMA decides to
           grant an exception for all or part of costs as provided for in 44 CFR 13.36(c), and
           determines the costs were reasonable (finding A).

           Recommendation #2: Instruct the State to remind the City that it is required to comply
           with Federal procurement standards when acquiring goods and services under FEMA
           awards (finding A).

           Recommendation #3: Disallow $476,455 of unsupported project costs (finding B).

           Recommendation #4: Disallow $180,626 of ineligible cost for activities covered by
           insurance (finding C).



www.oig.dhs.gov                                   7                                   DA-13-04
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



           Recommendation #5: Disallow $8,624 of ineligible costs for small project work not
           completed (finding D).

           Recommendation #6: Disallow $18,732 of ineligible labor costs (finding E).


                     DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with City, State, and FEMA officials during our audit. We
   also provided a draft report in advance to these officials and discussed it at the exit conference
   held on August 15, 2012. City officials agreed with findings C and E and partially agreed with
   finding B. They also said that they will continue to research documentation to resolve finding D.
   However, City officials disagreed with finding A and said that they plan to appeal if FEMA
   disallows the costs. Their comments, where appropriate, are included in the body of the
   report. FEMA and State officials withheld comments pending receipt of the report.

   Within 90 days of the date of this memorandum, please provide our office with a written
   response that includes your (1) agreement or disagreement, (2) corrective action plan, and
   (3) target completion date for each recommendation. Also, please include responsible parties
   and any other supporting documentation necessary to inform us about the current status of the
   recommendation. Until we receive and evaluate your response, the recommendations are
   considered open and unresolved. An appeal of a closed recommendation that allows costs
   previously disallowed would constitute a revised management decision and reopen the
   recommendation, necessitating further audit resolution.

   Consistent with our responsibility under the Inspector General Act, we are providing copies of
   our report to appropriate congressional committees with oversight and appropriation
   responsibility over the Department of Homeland Security. We will post the report on our
   website for public dissemination.

   Major contribution to this report were David Kimble, Eastern Region Audit Director; Adrianne
   Bryant, Audit Manager; Vilmarie Serrano, Auditor-in-charge; and John Schmidt, Program Analyst.

   Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
   Eastern Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                    8                                     DA-13-04
                                      OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security



                                                                                                        EXHIBIT A

                                        Schedule of Projects Audited 

                                   October 23, 2005, to December 13, 2011 

                                             City of Lake Worth 

                                       FEMA Disaster No. 1609-DR-FL 

                                          Large and Small Projects 


    Project                                                       Amount         Amount         Amount
   Number                      Project Scope                     Awarded         Claimed      Questioned     Finding
     6477      Citywide debris removal                          $ 1,529,699    $ 1,529,699    $ 288,034         B
     4921      Emergency protective measures                         131,948        131,948         2,559       B
     7676      Citywide electrical distribution repair             1,649,769      1,649,769     1,649,769       A
     7679      Citywide electrical distribution repair             5,169,967      5,169,967     5,169,967       A
     8398      Citywide electrical distribution repair             1,370,965      1,370,965       204,594      B,E
     7671      Citywide electrical distribution repair               178,359        178,359       178,359       A
  Large Projects Total                                          $10,030,707    $10,030,707     $7,493,282
     2430      Field Service Complex site work                  $     12,960    $    12,960   $          -
     5166      Pinecrest Cemetery Building site work                  31,738         31,738        27,008      C
     8511      Casino Beach and Pool Complex site work                51,766         51,766         4,093      D
     8472      Casino Ballroom site work                              46,341         46,341        46,341      C
     7743      City Hall – Museum site work                           14,997         14,997             -
     7434      Public Works Utilities Administration                  29,944         29,944             -
               Building site work
     2857      Public Works Complex fence repair                      1,151          1,151             -
     7316      Solid Waste Washing Station site work                  2,126          2,126             -
     8507      South E Street shed replacement                       12,800         12,800             -
     8505      Public Works site work                                 8,735          8,735             -
     8284      Lucerne Fire Station site work                         7,367          7,367             -
     7742      City Hall Cultural Annex site work                     6,620          6,620             -
     3651      Memorial Park fence work                               2,633          2,633         2,633       C
     5192      Municipal Golf Course site work                       18,354         18,354        18,354       C
     8279      Howard Park site work                                 42,954         42,954        42,954       C
     4749      Casino Complex – Beach Facility site work              9,431          9,431             -
     3429      Citywide parking meter repair                         21,755         21,755        14,555       C
     3830      Old Landfill fence repair                             10,905         10,905         7,905       C
     8276      Harrison Bridge site work                              3,453          3,453             -
     8443      Casino Complex – Exterior Pool Filter                  4,531          4,531         4,531       D
               House site work
     4536      Bryant Park site work                                 11,376         11,376         3,949       C
     5590      Sunset Park and Northwest Ball Fields site            31,990         31,990        16,927       C
               work
     4840      Memorial and Spillway Parks site work                  5,488           5,488             -
  Small Projects Total                                          $ 389,415      $    389,415   $ 189,250
  Grand Total                                                   $10,420,122     $10,420,122    $7,682,532



www.oig.dhs.gov                                             9                                         DA-13-04
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



                                                                               EXHIBIT B 


                                           Distribution List
                                     City of Lake Worth, Florida
                                     FEMA Disaster 1609-DR-FL

   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison, FEMA Region IV
   Audit Liaison, FEMA (Job Code G-12-053)

   Grantee

   Public Assistance Coordinator, Florida Division of Emergency Management

   State

   State Auditor, Florida

   Subgrantee

   City of Lake Worth, Finance Director




www.oig.dhs.gov                                  10                          DA-13-04
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
